No. 19-267

In the Supreme Court of the United States
OUR LADY OF GUADALUPE SCHOOL, PETITIONER
v.
AGNES MORRISSEY-BERRU, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF FOR THE ETHICS AND RELIGIOUS LIBERTY
COMMISSION OF THE SOUTHERN BAPTIST CONVENTION, THE CHURCH OF JESUS CHRIST OF LATTERDAY SAINTS, THE RIGHT REVEREND DEREK JONES,
THE ALEPH INSTITUTE, THE ASSEMBLIES OF GOD
(USA), AND STEWARDS MINISTRIES,
AS AMICI CURIAE SUPPORTING PETITIONER

SARAH M. HARRIS
Counsel of Record
MATTHEW D. HEINS
SUSANNA R. ALLEN
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
sharris@wc.com

TABLE OF CONTENTS

Page
INTEREST OF AMICI CURIAE..................................... 1
SUMMARY OF ARGUMENT ........................................... 3
ARGUMENT ......................................................................... 7
I. The Ministerial Exception Is an Essential Shield
Against Unconstitutional Governmental Intrusion
into Religious Life ....................................................... 7
II. The Ninth Circuit’s Narrowing of the Ministerial
Exception Threatens Myriad Religious Communities ................................................................................ 15
CONCLUSION ................................................................... 19

(I)

II
TABLE OF AUTHORITIES
Page(s)
Cases

Alicea-Hernandez v. Catholic Bishop of
Chi., 320 F.3d 698 (7th Cir. 2003) ................................ 14
Biel v. St. James Sch.,
911 F.3d 603 (9th Cir. 2018) ................................... 16, 17
Cannata v. Catholic Diocese of Austin,
700 F.3d 169 (5th Cir. 2012) ................................... 10, 11
Corp. of Presiding Bishop of Church of
Jesus Christ of Latter-day Saints v.
Amos, 483 U.S 327 (1987) ....................................... 16, 17
Church of the Lukumi Babalu Aye v. City
of Hialeah, 508 U.S. 520 (1993) ................................... 14
EEOC v. Catholic Univ. of Am.,
83 F.3d 455 (D.C. Cir. 1996) ......................................... 13
Fowler v. Rhode Island, 345 U.S. 67 (1953) ..................... 14
Fratello v. Archdiocese of N.Y.,
863 F.3d 190 (2d Cir. 2017) ..................................... 10, 13
Hosanna-Tabor Evangelical Lutheran
Church & Sch. v. E.E.O.C.,
565 U.S. 171 (2012) ............................................... passim
Kedroff v. St. Nicholas Cathedral of
Russian Orthodox Church in N. Am.,
344 U.S. 94 (1952) .................................................. 7, 9, 19

Page(s)
Cases continued—

NLRB v. Catholic Bishop of Chi.,
440 U.S. 490 (1979) ........................................................ 17
Rayburn v. Gen. Conference of SeventhDay Adventists,
772 F.2d 1164 (4th Cir. 1985) ....................................... 13
Serbian E. Orthodox Diocese for U.S. &
Can. v. Milivojevich,
426 U.S. 696 (1976) .................................................... 9, 16
Shaliehsabou v. Hebrew Home of Greater
Wash., Inc.,
363 F.3d 299 (4th Cir. 2004) ................................... 13, 14
Sterlinski v. Catholic Bishop of Chi.,
934 F.3d 568 (7th Cir. 2019) ............................. 11, 13, 14
Temple Emanuel of Newton v. Mass.
Comm’n Against Discrimination,
975 N.E.2d 433 (Mass. 2012) .................................. 11, 13
Watson v. Jones,
80 U.S. 679, 727 (1872) ................................................ 8, 9
Constutitions
U.S. Const. amend. I ............................................................. 8

(I)

II
Other Authorities
10 Encyclopedia of Religion (2d ed. 2005)........................ 12
Pew Research Center, America’s Changing
Religious Landscape (May 12, 2015),
https://www.pewforum.org/wpcontent/uploads/sites/7/2015/05/RLS-0826-full-report.pdf ........................................................... 12

In the Supreme Court of the United States
No. 19-267
OUR LADY OF GUADALUPE SCHOOL, PETITIONER
v.
AGNES MORRISSEY-BERRU, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF FOR THE ETHICS AND RELIGIOUS LIBERTY
COMMISSION OF THE SOUTHERN BAPTIST CONVENTION, THE CHURCH OF JESUS CHRIST OF LATTERDAY SAINTS, THE RIGHT REVEREND DEREK JONES,
THE ALEPH INSTITUTE, THE ASSEMBLIES OF GOD
(USA), AND STEWARDS MINISTRIES,
AS AMICI CURIAE SUPPORTING PETITIONER

INTEREST OF AMICI CURIAE1

The Ethics and Religious Liberty Commission of the
Southern Baptist Convention is an entity of the Southern

Pursuant to Rule 37.6, amici affirm that no counsel for a party authored this brief in whole or in part and that no person other than
amici or their counsel have made any monetary contributions intended to fund the preparation or submission of this brief. Pursuant
to Rule 37.2, counsel of record for all parties received notice of amici’s

1

(1)

2
Baptist Convention, an incorporated organization whose
purpose is to provide a general organization for Baptists
in the United States and its territories.
The Church of Jesus Christ of Latter-day Saints is a
Christian denomination with over 16 million members
worldwide. The Church has religious employment standards that are essential to accomplishing its religious mission.
The Right Reverend Derek Jones is an American Anglican bishop in the College of Bishops of the Anglican
Church in North America and Bishop of the Armed
Forces and Chaplaincy. The Anglican Church in North
America unites some 100,000 Anglicans in nearly 1,000
congregations across the United States and Canada into
a single church.
The Aleph Institute is a 35-year-old non-profit Jewish
organization dedicated to providing spiritual support and
addressing the needs of Jewish persons in institutional
environments such as prisons, mental health facilities, and
rehabilitation centers throughout the United States.
The Assemblies of God (USA) is a Pentecostal Christian denomination with more than 13,000 churches and
over 3 million adherents. It is part of the World Assemblies of God Fellowship, which has more than 69 million
adherents worldwide and is the world’s largest Pentecostal denomination and fourth largest Christian fellowship.
Stewards Ministries is a non-profit organization that
exists to support the Plymouth Brethren, an evangelical
Christian movement. In general, the Plymouth Brethren

intent to file this brief at least ten days before the due date. The parties have consented to the filing of this brief.

3
do not have formal membership or pastors and meet in
independent, local assemblies.
Amici share a fundamental interest in preserving the
right of religious organizations to decide, free from state
interference, matters of religious government, faith, and
doctrine. Amici repeatedly encounter issues concerning
who may serve in their ministry, including as parties to
litigation. The ability of amici to decide for themselves
who among their members may be entrusted to perform
religious functions central to their faith is the cornerstone
of their freedom to pursue their own religious missions independent of secular control. When the government dictates which individuals amici can hire to perform religious functions, and when those individuals can be fired,
the government extinguishes the religious liberty that the
Religion Clauses protect from governmental interference.
SUMMARY OF ARGUMENT

This case presents urgent questions about whether religious organizations can continue to rely on the First
Amendment’s guarantee of governmental non-interference in fundamental matters of faith. Since the Founding,
it has been well settled that when religious organizations
make decisions about matters of faith, doctrine, or internal governance, the Religion Clauses of the First Amendment bar the government from second-guessing those
choices.
Few determinations matter more to religious organizations’ fulfillment of their pastoral missions than decisions about which members to entrust with religious functions. When it comes to employment disputes between a
religious organization and those employees carrying out
central aspects of the faith, the Religion Clauses neces-

4
sarily trump otherwise-applicable employment laws, because it is “impermissible for the government to contradict a church’s determination of who can act as its ministers.” Hosanna-Tabor Evangelical Lutheran Church &
Sch. v. E.E.O.C., 565 U.S. 171, 185 (2012).
This so-called “ministerial exception” is no mere technicality of employment law. Rather, it is a vital safeguard
against governmental intrusion on “the authority to select
and control who will minister to the faithful,” which “is the
church’s alone.” Id. at 195. This Court in Hosanna-Tabor
thus rightly refused to “adopt a rigid formula” to define
which employees of a given religious group fall within the
ministerial exception. Id. at 190. Rather, the Court took
a holistic approach, looking at various facts relevant to
whether someone performs functions commonly understood within the faith as core religious duties. See id. at
191-92. Certainly, Hosanna-Tabor nowhere suggests
that the absence of a formal religious title or training
means that the ministerial exception does not apply.
Justices Thomas, Alito, and Kagan, in two concurrences, further emphasized that the ministerial exception
must respect religious authorities’ determinations regarding which members of the faith are performing central religious functions. See id. at 196 (Thomas, J., concurring); id. at 199 (Alito, J., concurring). As petitioner
notes, the overwhelming majority of courts before and after Hosanna-Tabor have focused on whether employees
perform core religious functions to determine the applicability of the ministerial exception. Pet. 15-16, 19-21, 25-26.
Titles, training, and other formal indicia of status matter—but as possible evidence of the significance of the
employee’s religious duties, not as independently dispositive facts. See id.

5
And for good reason. Treating the formalities of titles
and training as dispositive risks elevating form over substance, with potentially disastrous results for religious liberty in a nation of religious pluralism. Some religions (like
the Lutheran faith at issue in Hosanna-Tabor) use titles
and formal training to identify members entrusted with
significant spiritual duties. But other faith groups eschew
such formalities, or give a multitude of members seemingly formal titles. Only by focusing on the substance of
what particular members do—namely, whether the religious organization to which they belong believes that they
perform key religious duties—can courts respect the divergent ways that different religions worship, teach, and
self-govern. That understanding of the ministerial exception is necessary, as well, to avoid the type of discrimination against particular groups that the Religion Clauses
prohibit.
In a series of cases culminating in the decision below,
however, the Ninth Circuit improperly transformed the
ministerial exception into a rigid straightjacket that deprives religious organizations of the essential freedom to
decide who should perform central duties of a faith. The
court below considered it insufficient that respondent—a
teacher at a Catholic school—had “significant religious responsibilities” for core aspects of religious instruction.
Pet. App. 3a. The court rather found it dispositive that
respondent did not “have any religious credential, training, or ministerial background,” or “hold herself out to the
public as a religious leader or minister,” id., as did the Lutheran schoolteacher in Hosanna-Tabor.
Absent this Court’s immediate intervention, even if
employees indisputably perform core religious functions,
federal employment rules will supersede the religious or-

6
ganization’s freedom to choose who carries out those functions—unless the religious organization also formally credentials the employee. As petitioner explains, the Ninth
Circuit’s cabining of the ministerial exception to cases
that replicate all the facts of Hosanna-Tabor defies the
overwhelming consensus of other circuits, which have focused on the significance of an employee’s religious functions. Pet. 19-21, 25-26.
Even without that clear circuit split, this Court’s review would be imperative. If left undisturbed, the Ninth
Circuit’s rule would impose an unconstitutional choice on
a broad variety of religious groups. Unlike the Lutheran
Church, the denomination at issue in Hosanna-Tabor,
many religious groups do not practice formal ordination,
require formal training, or grant formal titles to those
performing religious functions. Nonetheless, to avail
themselves of the ministerial exception, all faith groups
would have to ensure that anyone entrusted with core
functions of their faith shared all the titles and training
the Lutheran Church bestowed upon teacher Cheryl
Perich. Such governmental micromanagement of how religious organizations structure their own affairs is anathema to the Religion Clauses, and would replace religious
pluralism with a one-size-fits-all set of organizational
rules at an intolerable spiritual price. Not only that, forcing other faith groups to conform to organizational precepts of the Lutheran Church would impermissibly favor
one faith over multitudes of others.
Yet the alternative path the Ninth Circuit would leave
for religious organizations is even more troubling. Without the ministerial exception, religious organizations
would lose control over some of their most sensitive decisions. Here as elsewhere, personnel is policy: “Both the

7
content and credibility of a religion’s message depend vitally on the character and conduct of its teachers.” Hosanna-Tabor, 565 U.S. at 201 (Alito, J., concurring).
Churches, synagogues, and mosques alike would have to
bow to the government’s employment criteria for hiring
and firing individuals entrusted with the most sensitive
aspects of their faiths. The government could saddle religious organizations with clergy bent on thwarting core
tenets of the faith, or teachers who repudiate the very beliefs they are entrusted with inculcating in their students.
Without a robust ministerial exception, the government
(whether through employment laws or otherwise) would
thrust itself into the very “matters of church government
as well as those of faith and doctrine” that the Religion
Clauses exist to “protect from state interference.”
Kedroff v. St. Nicholas Cathedral of Russian Orthodox
Church in N. Am., 344 U.S. 94, 116 (1952).
The Ninth Circuit has placed myriad religious organizations in an untenable situation that demands this
Court’s immediate intervention. Virtually all religious organizations have a presence within the Ninth Circuit, representing tens of millions of Americans. Those organizations, not the government, should remain in sole charge of
choosing their own shepherds for their flocks. This Court
should act now and stop the decision below from undoing
centuries-old protections against governmental interference with fundamental matters of religious belief.
ARGUMENT

I.

The Ministerial Exception Is an Essential
Shield Against Unconstitutional Governmental
Intrusion into Religious Life

1. It is no accident that courts have overwhelmingly
tethered the ministerial exception to religious functions,

8
not formalities. Long before courts recognized a specific
“ministerial exception,” it was well settled that religious
groups enjoy the freedom to make their own decisions
about matters of governance, faith, and doctrine free from
governmental interference. The notion that the government can have “no role in filling ecclesiastical offices” predated the Founding. See Hosanna-Tabor, 565 U.S. at
181-87. The idea that religious faith, practice, and governance should be free from governmental control “was addressed in the very first clause of Magna Carta,” and inspired some of the earliest journeys to the New World.
Id. at 182-83.
That bedrock principle of non-interference informed
the First Amendment’s Religion Clauses, which together
provide that “Congress shall make no law respecting an
establishment of religion, or prohibiting the free exercise
thereof.” U.S. Const. amend. I. The Founding generation
understood these Clauses to circumscribe governmental
involvement in filling ecclesiastical offices: “The Establishment Clause prevents the Government from appointing ministers, and the Free Exercise Clause prevents it
from interfering with the freedom of religious groups to
select their own.” Hosanna-Tabor, 565 U.S. at 184.
A long line of this Court’s decisions reinforced the
point. The Court in Watson v. Jones observed that determinations of decision-making bodies of a church group
cannot be overruled through secular government or lawmaking as to “questions of discipline, or of faith, or ecclesiastical rule, custom, or law.” 80 U.S. 679, 727 (1872).
Nearly a century later, the Court similarly held that the
government of New York had no power to compel Russian
Orthodox churches in the state to recognize the authority
of the governing body of the North American church, reasoning that “the Church’s choice of its hierarchy” was

9
“strictly a matter of ecclesiastical government.” Kedroff,
344 U.S. at 96-97, 115, 119. The Court likewise rejected
the notion that civil courts could second-guess whether an
ecclesiastical tribunal should remove a bishop, regardless
of whether civil courts believed the church had complied
with its own laws and regulations. Serbian E. Orthodox
Diocese for U.S. & Can. v. Milivojevich, 426 U.S. 696, 72425 (1976).
In short, the Court has long understood the Religion
Clauses to protect not only the “[f]reedom to select the
clergy,” Kedroff, 344 U.S. at 116, but also the general right
of religious groups to organize, regulate, and govern
themselves in accordance with their own principles. Nor
is such a rule unfair: employees of religious groups, after
all, give “implied consent to [church] government, and are
bound to submit to it” given the special ecclesiastical nature of that relationship. Watson, 80 U.S. at 729.
2. The Court’s reasoning in Hosanna-Tabor underscores that the ministerial exception must be sufficiently
broad to preclude governmental interference into which
individuals will carry out functions a religious group
deems critical to its mission. The Court explained that
“[r]equiring a church to accept or retain an unwanted minister, or punishing a church for failing to do so, intrudes
upon more than a mere employment decision” and instead
“interferes with the internal governance of the church, depriving the church of control over the selection of those
who will personify its beliefs.” 565 U.S. at 188. And a
“minister,” the Court explained, is not just someone holding that specific title, or confined to “the head of a religious congregation.” Id. at 190. Rather, the ministerial
exception recognizes that the Religion Clauses protect religious groups’ entitlement to control “who will preach

10
their beliefs, teach their faith, and carry out their mission.” Id. at 196. Determining which individuals perform
those core religious functions is thus central to the inquiry.
True, the Court looked to a host of facts relevant to
understanding why a “called” Lutheran teacher fell
within the ministerial exception. For instance, the Court
cited “the formal title given Perich by the Church, the
substance reflected in that title, her own use of that title,
and the important religious functions she performed for
the Church.” Id. at 192. But the Court looked at these
considerations as indicia of the respondent’s “role in conveying the Church’s message and carrying out its mission,” id.—in other words, her degree of involvement in
performing religious functions. And the Court cautioned
that these factors were no “rigid formula for deciding
when an employee qualifies as a minister.” Id. at 190; see
Fratello v. Archdiocese of N.Y., 863 F.3d 190, 204-05 (2d
Cir. 2017) (“Hosanna-Tabor instructs only as to what we
might take into account . . . it neither limits the inquiry to
those considerations nor requires their application in
every case.”); Cannata v. Catholic Diocese of Austin, 700
F.3d 169, 177 (5th Cir. 2012) (similar).
That focus on an employee’s “role in conveying the
Church’s message and carrying out its mission,” Hosanna-Tabor, 565 U.S. at 192, also exemplifies how lower
courts have interpreted the ministerial exception. Time
and again, courts have held that the government cannot
interfere with a religious organization’s employment decisions even where the “ministers” in question are not labeled “ministers,” are not formally ordained, and received
no formal religious certifications or instruction. What
matters is whether the religious organization believes in

11
good faith that the functions an employee performs are
important to advancing its pastoral mission.
The Seventh Circuit, for instance, recently held that a
Catholic church organist fell within the ministerial exception despite lacking these similarities to the facts of Hosanna-Tabor. The court cited a United States Conference
of Catholic Bishops document “explaining how music advances not only celebration of the mass but also other devotional matters.” Sterlinski v. Catholic Bishop of Chi.,
934 F.3d 568, 569 (7th Cir. 2019). As the court explained:
“If the Roman Catholic Church believes that organ music
is vital to its religious services, and that to advance its
faith it needs the ability to select organists, who are we
judges to disagree?” Id. at 570. The Fifth Circuit employed similar reasoning to conclude that a Catholic music
director fell within the ministerial exception. Cannata,
700 F.3d at 178.
Likewise, the Massachusetts Supreme Judicial Court
held that the ministerial exception barred a Jewish
schoolteacher’s employment complaint. Temple Emanuel of Newton v. Mass. Comm’n Against Discrimination,
975 N.E.2d 433, 443 (Mass. 2012). Although “she was not
a rabbi, was not called a rabbi, and did not hold herself out
as a rabbi” and apparently had little religious training, she
“taught religious subjects at a school . . . whose mission
was to teach Jewish children about Jewish learning, language, history, traditions, and prayer.” Id. These courts
thus rightly approach the ministerial exception as centering upon the importance of an employee’s religious functions—not as a formalistic exercise that rejects the exception whenever the facts diverge from Hosanna-Tabor.
3. Looking to the substance of how religious organizations characterize employees’ religious duties is also essential to preserve a uniform rule that treats the nation’s

12
diverse faith groups equally: only employees whom the
religious organization in good faith believes are performing core religious functions fall within its ambit. Over 100
religions or categories of religions count Americans as adherents. See Pew Research Center, America’s Changing
Religious Landscape 21 (May 12, 2015), https://www.pewforum.org/wp-content/uploads/sites/7/2015/05/RLS-0826-full-report.pdf. And in every religion, certain members perform core religious functions, like leading a congregation in worship, proselytizing the faith, instructing
adherents, or otherwise carrying out a religious mission.
But faith traditions vary widely in their conceptions of
what core religious functions of their faith entail, and who
performs them. See Hosanna-Tabor, 565 U.S. at 197
(Thomas, J., concurring). For instance, Protestant faiths
often designate “ministers,” but that term “is rarely if
ever used” to reference clergy “by Catholics, Jews, Muslims, Hindus, or Buddhists.” Id. at 198 (Alito, J., concurring); see also 10 Encyclopedia of Religion 7451-52 (2d ed.
2005) (Protestantism is historically characterized by “ambiguity about the lay-clerical distinction,” and “in almost
all cases they retained a specially sanctioned clergy, ascribed great authority also to the laity, and left the status
of both ambiguous”). Depending on the particular faith, a
religious organization’s failure to use the term “minister”
to describe an employee thus may shed no light on
whether that person in fact serves a crucial role in worship
or religious ceremonies.
Similarly, “the concept of ordination as understood by
most Christian churches and by Judaism has no clear
counterpart in some Christian denominations and some
other religions.” Hosanna-Tabor, 565 U.S. at 198 (Alito,
J., concurring). In the Catholic faith, for instance, nuns
are not ordained, but few could doubt that their functions

13
are fundamental to advancing the faith. See, e.g., EEOC
v. Catholic Univ. of Am., 83 F.3d 455 (D.C. Cir. 1996).
Other religions also reserve separate, non-ordained roles
for women, who, under the tenets of their faith, cannot
serve as ordained ministers. Rayburn v. Gen. Conference
of Seventh-Day Adventists, 772 F.2d 1164, 1165 (4th Cir.
1985) (recognizing that “in the Seventh-day Adventist
Church women may not stand for ordination”).
Likewise, faith traditions vary widely as to whether
and to what degree those performing important religious
functions must receive formal training, and what that
training entails. See Hosanna-Tabor, 565 U.S. at 198
(Alito, J., concurring). A Catholic school principal, for example, may not need to “meet any formal religious-education requirements,” but may be required to be a “practicing Catholic in union with Rome, with a commitment to
the teachings of the Church.” Fratello, 863 F.3d at 208.
The person in such a role nonetheless functions as a critical example of the faith and plays a central role in inculcating its precepts. See id. at 209. The same goes for
Catholic church organists, see Sterlinski, 934 F.3d at 569,
and Jewish schoolteachers, Temple Emanuel, 975 N.E.2d
at 443, neither of whom necessarily undergo formal doctrinal training.
Positions in some faith traditions also have no corresponding religious significance for others. A “mashgiach”
in the Orthodox Jewish tradition, for instance, supervises
food preparation. Shaliehsabou v. Hebrew Home of
Greater Wash., Inc., 363 F.3d 299, 301-02 (4th Cir. 2004).
But that person does so pursuant to authorization from
Orthodox rabbis, ensures that food preparation is kosher,
and may make judgment calls about compliance with Jewish law. Id. Those functions, in turn, ensure compliance
with kosher dietary laws, which the Orthodox Jewish faith

14
considers a central aspect of the religion. Id. Likewise,
“communications director” is not a role that exists in
every faith group. But a communications director for the
Catholic diocese who “is often the primary communications link to the general populace” is “critical in message
dissemination, and a church’s message, of course, is of singular importance.” Alicea-Hernandez v. Catholic Bishop
of Chi., 320 F.3d 698, 704 (7th Cir. 2003).
In short, the ministerial exception looks to how a given
faith tradition defines religious functions, not to the labels
attached to different employees, precisely because “[d]ifferent religions will have different views on exactly what
qualifies as an important religious position.” HosannaTabor, 565 U.S. at 200 (Alito, J., concurring). The stakes
of maintaining that understanding of the ministerial exception are difficult to exaggerate. A wide array of religious organizations, including amici, depend on the ministerial exception to preserve their autonomy to structure
their own affairs and to determine the best messengers
for their faiths. The functional approach to the ministerial
exception avoids privileging faith groups that rely on
more formal structures or designations at the expense of
the many groups that eschew such outward signaling—a
form of religious discrimination that the First Amendment emphatically prohibits. See, e.g., Church of the
Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520,
532 (1993); Fowler v. Rhode Island, 345 U.S. 67, 69-70
(1953). By deferring to different religious groups’ goodfaith explanations of which individuals perform functions
necessary to a religious mission, this approach also avoids
protracted litigation and judicial second-guessing of
whether religious groups have correctly characterized
tenets of their faith. See Sterlinski, 934 F.3d at 570.

15
II.

The Ninth Circuit’s Narrowing of the Ministerial Exception Threatens Myriad Religious
Communities

The decision below profoundly threatens the essence
of religious autonomy. “The Constitution leaves it to the
collective conscience of each religious group to determine
for itself who is qualified to serve as a teacher or messenger of its faith,” because those functions are so critical to
the survival of the faith. Hosanna-Tabor, 565 U.S. at 202
(Alito, J. concurring). The decision below, however,
usurps that authority from religious groups and vests it in
the government.
The Ninth Circuit’s rule repudiates the notion that
courts could ever accept a religious group’s sincere statement that particular employees are indeed performing religious functions. And the Ninth Circuit’s rule would leave
it to the government to dictate employment criteria for
members of a religious group entrusted with elemental
functions of the faith if the group fails to affix formal labels to those employees, put them through formal training, and ensure they outwardly represent themselves as
“minister” equivalents. Supra pp. 10-14; Pet. 31-32.
In other words, religious traditions whose employees
fail to conform perfectly to all the facts of Hosanna-Tabor—despite the conceded importance of an employee’s
religious functions—can find no refuge in the ministerial
exception. Pet. App. 2a-3a. If left undisturbed, that onesize-fits-all approach to the ministerial exception would
compromise many religious organizations’ “freedom to
speak in [their] own voice, both to [their] own members
and to the outside world.” Hosanna-Tabor, 565 U.S. at
201 (Alito, J. concurring). This Court’s immediate intervention is essential to prevent grave and widespread encroachments on fundamental constitutional guarantees.

16
Those problems are not mere abstractions. The Ninth
Circuit’s inappropriately rigid approach urgently threatens a host of religious organizations with intolerable
choices. As amici can attest, the ministerial exception is
a critical safeguard for religious organizations of all
stripes to avoid being forced to litigate internal ecclesiastical disputes before civil courts. A multitude of groups,
representing millions of adherents, have built faith communities within the Ninth Circuit. But henceforth, to invoke the ministerial exception, any groups that do not already conform to the practices of the Lutheran Church
would have to adopt formal ordination, formal titles, formal religious training, and other outward forms of recognition. Forcing groups to adopt those outward signals of
religious significance for the good of secular observers
would amount to the very “judicial rewriting of church
law” that the First Amendment abhors. Serbian E. Orthodox Diocese, 426 U.S. at 719.
There is no question that many groups would feel intense pressure to conform, but for the unconscionable
spiritual price. As Justice Thomas highlighted in his Hosanna-Tabor concurrence, a “bright-line test” like the
Ninth Circuit’s as to who qualifies as a “minister” might
“cause a religious group to conform its beliefs and practices regarding ‘ministers’ to the prevailing secular understanding.” 565 U.S. at 197 (Thomas, J., concurring). And
“it is a significant burden on a religious organization to
require it, on pain of substantial liability, to predict which
of its activities a secular court will consider religious.”
Corp. of Presiding Bishop of Church of Jesus Christ of
Latter-day Saints v. Amos, 483 U.S. 327, 336 (1987).
Consider the following: In declining to apply the ministerial exception in Biel v. St. James School, the Ninth

17
Circuit found it persuasive that there was “nothing religious reflected” in a Catholic school teacher’s title—
“Grade 5 Teacher.” 911 F.3d 603, 608-09 (9th Cir. 2018),
petition for cert. filed (Sept. 17, 2019) (No. 92-212); see
also Pet. App. 2a (“Unlike the employee in Hosanna-Tabor, Morrissey-Berru’s formal title of ‘Teacher’ was secular.”). To avoid costly litigation and governmental interference, a religious organization might be tempted to add
wording to the title of a specific position in order to better
signal to courts the important religious functions that a
position serves. But in so doing, a church’s “process of
self-definition would be shaped in part by the prospects of
litigation.” Amos, 483 U.S. at 343-44 (Brennan, J., concurring). Such direct governmental influence on the shaping
of internal church affairs is untenable.
Refusing to yield to this judicial micromanagement of
church functions, however, would force religious groups
to confront a litany of other unconscionable consequences.
Disabled from invoking the ministerial exception, religious groups would be forced into civil courts to litigate
employment disputes with employees performing some of
the most critical functions of their faiths. Religious
groups could be plunged into expensive and invasive litigation and discovery, subject to the ever-present risk that
courts would scrutinize untold numbers of ecclesiastical
decisions leading up to the lawsuit. The “very process of
inquiry” could “impinge on rights guaranteed by the Religion Clauses.” NLRB v. Catholic Bishop of Chi., 440
U.S. 490, 502 (1979). Religious groups would face enormous pressure to screen applicants not only for requisite
spiritual qualities, but also for potential litigiousness—potentially altering the group’s preferred choice of candidates to perform its essential functions. By allowing the
absence of a formal title and training to defeat the excep-

18
tion, the Ninth Circuit’s approach would exclude even employees with job functions whose religious significance is
obvious.
Consider, for instance, certain employees of the
Church of Jesus Christ of Latter-day Saints. The Managing Director of the Church’s Priesthood and Family Department directly oversees, under the direction of Church
apostles, the creation of religious curriculum, the translation of Church scripture, the coordination of youth ministries, special needs ministries and prison ministries, and
the formulation of instructions and guidelines for local ecclesiastical leaders. In the Church’s view (and under any
objective standard), the person in this position carries out
vitally “important religious functions,” even though the
person lacks a “formal religious title” or even a title that
reflects “ministerial substance and training.” See Pet.
App. 2a. Likewise, the Managing Director for the
Church’s Missionary Department, who works directly
with Church apostles in assigning, organizing, and overseeing tens of thousands of Church missionaries worldwide, performs critical religious functions. So does the
Managing Director of the Church’s Temple Department,
who, working with Church apostles, has stewardship over
Church temples—the faith’s most sacred places of worship—and the sacred religious rites and ceremonies that
occur there. But under the Ninth Circuit’s approach,
these positions would fall outside the ministerial exception unless the Church were to change its internal governance by designating novel titles and instituting religious
training in anticipation of judicial review.
By discounting an employee’s important religious
functions, the Ninth Circuit threatens religious groups’
“authority to select and control who will minister to the
faithful”—a matter that is “‘strictly ecclesiastical’’ and is

19
“the church’s alone.” Hosanna-Tabor, 565 U.S. at 195
(quoting Kedroff, 344 U.S. at 119). This Court should not
abandon religious groups to the choice of compromising
their internal structures to qualify for the ministerial exception, or accepting the government’s veto power over
“who is qualified to serve as a voice for their faith.” Id. at
201 (Alito, J., concurring).
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted,
SARAH M. HARRIS
MATTHEW D. HEINS
SUSANNA R. ALLEN
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
sharris@wc.com
SEPTEMBER 30, 2019

